                      0


        MANAGEMENT OF THE DEFENSE INFORMATION
           SYSTEMS AGENCY YEAR 2000 PROGRAM



Report No. 98-184                         August 4,1998




              Office of the Inspector General
                  Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD Home Page at: WWW.DODIG. OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                    OAIG-AUD (ATTN: APTS Audit Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste,or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to
  HotIine@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

ASD(C31)            Assistant Secretary of Defense (Command, Control,
                      Communications, and Intelligence)
DISA                Defense Information Systems Agency
Y2K                 Year 2000
                             INSPECTOR    GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                            ARLINGTON, VRGINIA 22202




                                                                          August 4, 1998


MEMORANDUM FOR DIRECTOR, DEFENSE INFORMATION SYSTEMS
               AGENCY
SUBJECT: Audit on Management of the Defense Information Systems Agency Year
         2000 Program (Report No. 98-184)


     We are providing this audit report for review and comment. We considered
comments on the draft report in preparing the final report.

         Comments on the draft report generally conformed to the requirements of DOD
Directive 7650.3. However, DISA needs to clarify with DOD officials whether system
interface agreements have to be formally established for selected communications
systems. DOD Directive 7650.3 requires that all recommendations be resolved
promptly and there is special urgency regarding Year 2000 conversion issues.
Accordingly, we ask that you provide planned actions and completion dates regarding
this issue by September 4, 1998.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Mary Lu Ugone at (703) 604-9049 (DSN 664-9049) or
Mr. James W. Hutchinson at (703) 6049060 (DSN 6649060). See Appendix C for
the report distribution. The audit team members are listed inside the back cover.




                                         Robert J. zieberman
                                      Assistant Inspector General
                                              for Auditing
                          Office of the Inspector General, DOD
Report No. 98-184                                                       August 4,1998
 (Project No. 8AS-0005)

         Management of the Defense Information Systems Agency
                          Year 2000 Program

                                 Executive Summary

Introduction. This reportis one of a series being issued by the Inspector General,
DOD, in accordance with an informal partnership with the Chief Information Officer,
DOD, to monitor DOD efforts to address the year 2000 computing challenge.

The cause of the year 2000 problem is that automated systems typically use two digits
to represent the year, such as “98” representing 1998, to conserve on electronic data
storage and reduce operating costs. With this two-digit format, however, the year 2000
is indistinguishable from 1900, or 2001 from 1901. As a result of the ambiguity,
system or application programs that use dates to perform calculations, comparisons, or
sorting could generate incorrect results when working with years after 1999. Unless
the problem is corrected, the automated systems may fail. Therefore, DOD manage-
ment issued a Year 2000 Management Plan that provides an overall strategy to assist
the DOD Components in resolving problems related to the year 2000. The five phases
included in the strategy are awareness, assessment, renovation, validation, and
implementation.

Audit Objectives. The audit objective was to evaluate the Defense Information
Systems Agency progress in preparing its information and technology systems for
year 2000 compliance. This report discusses the program management of the
year 2000 initiatives.

Audit Results. The Defense Information Systems Agency had implemented numerous
actions to improve its year 2CKKl  program, but some changes are still needed. We
briefed management regarding the limited documentation available to support the year
2000 work progress specifically related to the dissemination of guidance, prioritizing
interface identification, funding, contingency planning, testing and certification.
Without a greater effort by the Defense Information Systems Agency to revise its
year 2000 program to better comply with Federal and DOD requirements, the Defense
Information Systems Agency faces increased risks that its information and technology
systems may not operate properly in the year 2000 and beyond. The audit results are
detailed in Part I.

Summary of Recommeudatious. We recommend that the Director, Defense
Information Systems Agency, update the management plan to incorporate the changes
to the extent of the guidance documented within the DOD Year 2000 Management Plan;
disseminate guidance to the operating level; follow the exit criteria prescribed in the
DOD Year 2000 Management Plan to accurately document the reported progress for
year 2000; identify all interfaces to resolve any problems and communicate the
resolutions to all interface partners; provide cost estimates for each system; develop
contingency plans for systems that will not complete the revised implementation phase
scheduled for December 1998; and determine system year-2000 compliance status only
after the system has been tested and certified as compliant.
Management Comments. DISA generally concurred with the recommendations and
described both ongoing and newly initiated actions to improve DISA internal Y2K
guidance and requirements and to ensure that it includes DOD-wideY2K requirements
related to system interface agreements, tracking Y2K costs, and formally certifying that
DISA systems are Y2K compliant. DISA also commented that the status of DISA
systems presented in the report is outdated and does not accurately reflect the current
status of DISA systems. They also described extensive efforts to ensure that Y2K
guidance, requirements, and other related information, reaches those who are directly
involved in Y2K efforts. See Part 1 for a summary of management comments and Part
III for the complete text of the comments.
Audit Response. DISA comments were generally responsive. We recognize that
DISA has made commendable improvements in its Y2K efforts since we began the
audit. Especially noteworthy are DISA efforts to disseminate Y2K requirements and
information down to “the trenches. n However, in verifying DISA actions taken on the
recommendations, we could not confii that DODY2K officials had waived interface
agreement requirements for telecommunicationstransport systems. DISA believes that
a need for interface agreements is obviated through adherence to international and
national standards and that DODha’dprovided an exemption in that regard. We were
unable to verify such an exemption in the DODY2K Management Plan or within the
Office of Year 2000 Oversight and Contingency Planning. We ask that DISA clarify
the DODrequirement for Y2K system interfaces for communications transport systems
with DODY2K officials and provide comments on this final report by September 4,
1998. The response should specify what actions have been agreed to with the Office of
Year 2000 Oversight and Planning and estimated completion dates.




                                           ii
Table of Contents

Executive Summary                                                           i

Part I - Audit Results
      Audit Background                                                     2
      Audit Objective                                                      3
      Status of the Defense Information Systems Agency Year 2000 Program   4

Part II - Additional Information
      Appendix A. Audit Process and Prior Coverage
        Scope                                                              16
        Methodology                                                        16
        Prior Coverage                                                     17
      Appendix B. Summary of Defense Information Systems Agency
                   Systems Reviewed                                        18
      Appendix C. Report Distribution                                      21

Part III - Management Comments
      Defense Information Systems Agency Comments                          24
Part I - Audit Results
Audit Background

    The cause of the year 2000 (Y2K) problem is that automated systems typically
    use two digits to represent the year, such as “98” representing 1998, to
    conserve on electronic data storage and reduce operating costs. With this
    two-digit format, however, the Y2K is indistinguishable from 1900, or 2001
    from 1901. As a result of the ambiguity, system or application programs that
    use dates to perform calculations, comparisons, or sorting could generate
    incorrect results when working with years after 1999. Calculation of Y2K dates
    is further complicated because the year 2000 is a leap year, the first century leap
    year since 1600. This means that computer systems and applications must
    recognize February 29, 2000, as a valid date. Unless the problem is corrected,’
    the automated systems may fail.

    Because of the potential failure of computers to run or function throughout the
    Government, the President issued an executive order, “Year 2000 Conversion, ”
    dated February 4, 1998, making it policy that Federal agencies ensure that no
    critical Federal program is disrupted because of the Y2K problem. In addition,
    the head of each agency must ensure that efforts to address the Y2K problem
    receive the highest priority attention in the agency. Further, the General
    Accounting Office has designated resolution of the Y2K problem as a high-risk
    area, and DOD has recognized the Y2K issue as a material management control
    weakness area in the FY 1997 Annual Statement of Assurance.

    Impact *on DOD. As of January 1998, DOD reported 2,915 mission-critical
    systems . Of those systems, 530 were Y2K compliant, 330 were scheduled to be
    replaced, 1,891 were being repaired, and 164 were being retired. The total cost
    of the DOD Y2K effort is estimated at about $2 billion.

    DOD Y2K Management Strategy. In his role as the DOD Chief Information
    Officer, the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) issued the “DOD Year 2000 Management
    Plan” (DOD Management Plan) in April 1997. The DOD Management Plan
    provides the overall DOD strategy and guidance for inventorying, prioritizing,
    fixing, or retiring systems, and monitoring progress. The DOD Management
    Plan states that the DOD Chief Information Officer has overall responsibility for
    overseeing the DOD solution to the Y2K problem. Also, the DOD Management
    Plan makes the DOD Components responsible for implementing the five-phase
    Y2K management process. The DOD Management Plan includes a description
    of the five-phase Y2K management process. The most current DOD Manage-
    ment Plan, For Signature Draft Version 2.0, June 1998, accelerates the target
    completion dates for the renovation, validation, and implementation phases.
    The new target completion date for implementation of mission-critical systems
    is December 3 1, 1998.


    *A system that when its capabilities are degraded, the organization realizes a resulting loss of a
    core capability.

                                                2
     In a memorandum for the heads of executive departments and agencies, dated
     January 20, 1998, the Office of Management and Budget established a new
     target date of March 1999 for implementing solutions to all systems. The new
     target completion date for the renovation phase is September 1998.

     Defense Information Systems Agency. The Defense Information Systems
     Agency (DISA) is the DOD agency responsible for information technology and
     is the central manager for major portions of the DOD information infrastructure.
     As a result, DISA is obligated to provide Y2K-compliant computing platforms,
     networks, and services to the Services, DOD Components, and other customers.

     Separate Y2K coordination responsibilities are assigned for the DISA-owned
     DOD corporate systems and the internal DISA-owned systems. The Office of
     the Deputy Director for Command, Control, Communications, Computers, and
     Intelligence has responsibility for the DISA-owned corporate systems, and the
     Office of the Chief Information Officer manages the internal DISA-owned
     systems. For oversight and coordination purposes, the Vice Director meets
     weekly with representatives of each DISA Directorate to discuss progress made
     and to help resolve problems related to the DISA Y2K program.

Audit Objective
     The objective of the audit was to determine whether DISA is adequately
     preparing its information technology systems to resolve the date-processing
     issues for Y2K. Specifically, the objective was to determine whether the DISA
     has complied with the DOD Management Plan.
Status of the Defense Information
Systems Agency Year 2000 Program
The DISA has recognized the importance of Y2K and has taken
numerous positive actions in addressing the Y2K problem. However,
DISA needs to address the following critical factors to be in compliance
with the DOD Management Plan:

        l   update the DISA Y2K Problem Management Plan (hereafter
referred to as the DISA Y2K Management Plan), dated November 20,
1996, to include the requirements of the DOD Management Plan;

      l  disseminate the DOD Management Plan, the DISA Y2K
Management Plan, and other guidance in entirety to the operating levels;

        l  accurately report and document DISA Y2K status as
prescribed in the exit criteria within the DOD Management Plan;

            identify all interfaces and assigning risk and efforts to resolve
Y2K prfiblems for document agreements with interface partners on how
the interfaces should be made Y2K compliant;

       l  prepare updated Y2K cost estimates for each system to
determine whether additional funding is needed;

        l   develop contingency plans for mission-critical systems in
accordance with the DOD Management Plan and communicating the
plans to interface partners; and

      l   validate systems as Y2K compliant only after fully
documenting test results using the official compliance checklists.

Unless DISA adequately addresses these issues, its mission-critical
systems may not successfully operate in the year 2000 and beyond.




                              4
          Status of the Defense Information    Systems Agency Year 2000 Program




Actions Taken to Address the Year 2000 Problem
    Recognizing the importance of Y2K, DISA implemented various positive
    actions to resolve the Y2K problem. For example, DISA established a Y2K
    program management structure to improve management awareness and to
    provide frequent high-level guidance and direction in developing and executing
    the DISA Y2K strategy.

    The DISA efforts to address the Y2K problem include the following additional
    actions:

           l   DISA sponsored periodic meetings between systems’ owners and the
           central design activities responsible for modifying the programs run by
           management representatives;

           l   DISA established DISA Y2K coordinators for DISA-owned DOD
           corporate systems and another for internal DISA-owned systems;

           l   DISA developed its Y2K Management Plan, which provides
           guidance on the strategies, policies, and procedures needed to identify
           and resolve Y2K issues;

           l    DISA rated the criticality of all its information systems and used the
           rating to categorize the systems as mission critical or non-mission
           critical;

           l   DISA identified sufficient funds to pay for all of its necessary Y2K
           solutions without affecting other necessary operations; and

           l  DISA developed the DISA Y2K Testing Guideline, dated
           December 30, 1997.

    Also, the DISA Director required that all DISA-owned and maintained systems
    complete the Y2K implementation phase by October 1, 1998. The requirement
    accelerated the Y2K program milestones in the DOD Management Plan by
    3 months for mission-critical systems and by 6 months for non-mission-critical
    systems. The major benefit of the requirement is that DISA will have a year to
    run its systems in an operational mode and to work out any problems before the
    turn of the century.

    These aggressive actions by DISA are commendable. However, DISA needs to
    emphasize several Y2K issues more forcefully, as detailed in the following
    discussion. See Appendix B for a summary of issues related to the specific
    systems reviewed.




                                        5
Status of the Defense Information Systems Agency Year 2000 Program


DISA Year 2000 Guidance
      The DISA Y2K program coordinators need to devote greater efforts to updating
      the DISA Y2K Management Plan and disseminating current guidance to pro-
      gram and management representatives. A detailed summary of the results of the
      review is in Appendix B of this report.

      Updating the DISA Y2K Management Plan. DISA needs to update its Y2K
      Management Plan and modify its strategy to more closely conform with the
      current version of the DOD Management Plan. The ASD(C31) signed
      Version 1 .O of the DOD Management Plan in April 1997. Later, the ASD(C31)
      produced two updated versions and issued the unofficial Version 2.0 in January
      1998.

      DISA prepared the DISA Y2K Management Plan in November 1996, 6 months
      before the ASD(C31) issued Version 1.O of the DOD Management Plan.
      Because the DISA Y2K Management Plan preceded the DOD Management Plan,
      a management representative from the DISA Y2K Program Office stated that no
      plans would be made to modify the DISA Y2K Management Plan. The DISA
      Y2K Management Plan includes more restrictive time requirements than the
      most recent Version 2.0 of the DOD Management Plan; however, it is
      significantly more lenient in other areas, which is reflected in the results of this
      audit. The DISA Y2K Management Plan does not mirror the requirements of
      the DOD Management Plan for contingency planning, estimating Y2K costs,
      identifying time and other resource requirements, procurement planning, or
      preparing written Y2K strategies.

      Dissemination of Guidance. DISA not only needs to update its DISA Y2K
      Management Plan but also needs to make its component organizations more
      fully aware that DISA and DOD have published useful Y2K strategies and
      requirements. We spoke with 24 manager representatives responsible for the 35
      separate systems in our sample. Of the 24 management representatives, 14
      were not knowledgeable of the DOD Management Plan or the DISA Y2K
      Management Plan. However, the lack of awareness should not prevent the
      management representatives from taking specific actions to resolve any Y2K
      issues. We encourage DISA to disseminate both documents because they are
      useful and necessary resources for system and program managers working the
      Y2K issues. The DOD Management Plan outlines responsibilities and
      milestones and provides guidelines to ensure that no system fails because of
      Y2K problems.

      The DOD Management Plan provides DISA component organizations with
      specific requirements for the five-phase management process and with exit
      criteria for reporting the progression from one phase to the next. Furthermore,
      DISA already has instructed management representatives to report the Y2K
      progression status in accordance with the requirements of the DOD Management
      Plan. The review identified that DISA management had not adequately
      documented the Y2K progression status.


                                           6
           Status of the Defense Information Systems Agency Year 2000 Program


Documentation
     We met or consulted with system managers responsible for DISA mission-
     critical information systems from November 1997 through February 1998. We
     looked for minimal information on problem definition, milestones for
     completion of each phase, resource requirements, procurement plans or other
     methods of making the system Y2K compliant, and asked DISA management
     representatives to provide written strategies for making their individual systems
     Y2K compliant. The DOD Management Plan requires that DOD Components
     and management representatives develop strategies to resolve their Y2K
     problems in passing from the assessment phase to the renovation phase. In our
     sample of 35 DISA information systems, with the exception of the 3 retired
     systems, the 3 systems already replaced or scheduled to be replaced, and the
     2 systems managed but not owned by DISA, DISA reported 27 systems as
     either in the renovation phase or beyond. Of the 27 systems, 21 systems had no
     written Y2K strategy. However, the management representatives provided an
     acquisition strategy document dated December 24, 1997, that required all new
     information and technology items to be Y2K compliant. But, the DOD
     Management Plan requires a planned strategy to be completed in the assessment
     phase that shows the start and ending date of each phase, establishes major steps
     to convert and test Y2K solutions, and identifies the infrastructure and resources
     needed to complete the Y2K compliance. Also, the DOD Management Plan
     requires that the strategy be updated as exit criteria in each phase of the
     management process. Had the DISA management completed the required exit
     criteria, the interface identifications would have been completed, prioritized,
     documented, and available to assist the interface partners in readying their
     systems to meet the Y2K computer challenge.


Interface Identification Priority
     The DOD Management Plan considers identification of interfaces to be the
     highest priority because the transfer of electronic data has the potential to
     introduce errors, propagate errors, or both from one DOD Component to
     another. As a result, the DISA management representatives should give greater
     priority to identifying interfaces, preparing written agreements with interface
     partners, and identifying Y2K solutions for the interfaces.

     Interface Defined. The DOD Management Plan defines an interface as a
     boundary across which two systems pass electronic data. An interface might be
     a hardware connector or it might be a convention to allow communication
     between two software systems. Interfaces may connect applications, programs,
     or systems internally within DISA or between DISA and other DOD
     Components. Interfaces may also connect systems among DOD and external
     organizations.

     Interface Identification. DISA has not completed the interface identification
     process. In the DISA report on Y2K status for the quarter ending January
     1998, DISA identified 98 DISA-managed systems as mission critical and 127
                                         7
Status of the Defense Information   Systems Agency Year 2000 Program


       DISA-managed systems as noncritical. Also, DISA reported a total of 225
       interfaces for the mission-critical and non-mission-critical systems. A
       management representative from the Office of the Chief Information Officer
       stated that most DISA mission-critical systems do not interface with other
       internal or external systems, although many DISA systems interface with 20 or
       more systems. Of the 24 management representative we spoke with, 5 indicated
       that their systems did interface with others and readily stated that they had not
       yet started to identify interfaces.

      Prioritization and Risk Assessment. The DOD Management Plan asks
      Components to identify all system interfaces and to use the assessment to
      prioritize mission-critical system interfaces for DISA and other organizations.
      Because DISA has not emphasized interface identification, it has not been able
      to prioritize the importance of the system for system interface partners.
      Recently, management representatives started to identify all interfaces, but the
      action is still ongoing. In one instance, a management representative provided
      updated information that showed one system’s number of interfaces had
      increased to 96 since the initial review.

      Documented Interface Agreements. After DISA identifies its interfaces, it
      needs to communicate when and in what manner it plans to resolve the specific
      interface issue, so that the partners will be able to accommodate DISA Y2K
      changes. The DOD Management Plan requires DOD Components to document
      and obtain system interface agreements in the form of a Memorandum of
      Agreement or its equivalent. A sample Y2K compliance checklist included in
      the DOD Management Plan states that DOD Components and each interface
      partner should negotiate an agreement dealing with Y2K issues. Also, each
      interface partner should discuss and verify consistent implementation of Y2K
      corrections for compliance when date data pass between systems.

      Of the 25 systems in our sample for which interfaces were an issue, only one
      management representative had initiated a written interface agreement to support
      system interfaces that had been identified. From our sampled systems, DISA
      management stated that 13 systems did not need formal interface agreements
      because they are telecommunications transport systems and adhere to
      international standards. As such, DISA management stated that effecting
      interface agreements for telecommunications transport systems would be
      unnecessarily time-consumin g and bureaucratic because they are not impacted
      by date actions tied to Y2K. We agree that formal interface agreements for
      telecommunications systems may not be appropriate, but also recognize that
      DOD guidance does not provide an exception for telecommunications systems.
      DOD may be willing to make that exception if DISA was better able to identify
      the costs involved.




                                           8
          Status of the Defense Information Systems Agency Year 2000 Program


Funding
     To ensure that the DISA will have sufficient funds allocated to resolve the Y2K
     problem, it must place greater emphasis on estimating and accounting for Y2K
     costs.

     Estimating Costs for Y2K. The DOD Management Plan suggests that DOD
     Components conduct a thorough review of resource requirements as part of their
     overall assessment of the Y2K problem. The plan emphasizes the importance of
     estimating Y2K costs by using cost factors. Further, the DOD Management
     Plan allows DOD Components to use any other accurate means to provide a
     realistic estimate of Y2K costs. However, the DOD and the Office of
     Management and Budget require estimated Y2K costs to be reported and, if the
     estimate is made by means other than the cost factors, the DOD Components
     must identify the methodology used. In addition, the DOD Management Plan
     suggests frequent updates of Y2K cost estimates as circumstances change.

    DISA has not emphasized the development of Y2K-specific cost estimates. Of
    24 management representatives, 16 had not attempted to estimate costs related
    to Y2K. DISA management representatives explained that they considered
    developing separate Y2K estimates to be unnecessary because Y2K-related costs
    would be covered by the normal system budgets for update, renovation, or
    modification. Furthermore, because Congress will not be providing additional
    funding for Y2K resolution, the DISA management representatives considered
    budget estimation for Y2K to be unnecessary and time-consuming. DISA must
    place a greater emphasis on cost estimates with frequent adjustments to keep
    them current, or it may find that unidentified testing costs will increase the
    overall Y2K estimated cost.

    Accounting for Y2K Costs. The DOD Management Plan also emphasizes that
    Congress has requested and will continue to pursue an aggressive total
    accounting of the cost of Y2K compliance, even though Congress plans no
    budgetary relief to accomplish the Y2K mission. Management representatives
    stated that DISA personnel report direct Y2K costs to the Defense Integration
    Support Tools database and report indirect costs to the DISA Comptroller.
    Because DISA tracks costs separately, the congressional intent to obtain the
    actual Y2K program costs is not adequately being met.


Contingency Plans
    The DISA has not developed contingency plans for each of its mission-critical
    systems.

    Definition of Contingency Plan. A contingency plan is a strategy for
    responding to the loss of a system because of a disaster, such as flood, fire,



                                         9
Status of the Defense Information Systems Agency Year 2000 Program


      computer virus, or major software failure. The DOD Management Plan strongly
      emphasizes that DOD Components develop realistic contingency plans that
      include the following:

              l   developing and activating manual or contract procedures to ensure
      the continuity of core processes.

              l   developing procedures for emergency response, backup, and post-
      disaster recovery.

             l   developing contingencies in case a data exchange fails to take place
      as expected from an outside source.

             l    developing expenditures of additional funds to correct any unforeseen
      problems.

      Furthermore, the DOD Management Plan recommends that DOD Components
      start the contingency plan in the assessment phase and update them during each
      subsequent phase.

      DISA Contingency Plan. In our sample, 27 of 30 DISA systems that would
      continue to be active in the year 2000 did not have a written contingency plan to
      support operations in case the Y2K solutions failed. The DISA Y2K program
      manager explained that DISA will not start contingency planning until
      October 1, 1998. The program manager contends that contingency planning
      before program implementation will take critical manpower away from the Y2K
      problem resolution.

     Importance of Contingency Planning. Preparing contingency plans is an
     essential element of risk management; they should be prepared from the
     perspective of the business area as well as from the perspective of the system
     owners and users. The DOD Management Plan states that contingency plans for
     the year 2000 are much more important than plans for routine system
     development or maintenance efforts, for which schedule slippages are nonfatal
     and common. The Y2K program must be completed on time. Without
     researching the contingencies that are available in case of Y2K system failure,
     management representatives as well as system users cannot effectively prioritize
     the efforts required to resolve the Y2K problems.


Testing and Compliance Checklists

     DISA may have inappropriately reported systems to the Office of the Secretary
     of Defense as Y2K compliant. The classification of most of the systems
     reported as Y2K compliant was not supported by a signed compliance checklist
     or an acceptable equivalent. Systems should not be moved from the validation
     phase until they are fully tested and certified as Y2K compliant.



                                          10
           Status of the Defense Information Systems Agency Year 2000 Program


     Compliance Checklists. The DOD Management Plan states that DOD
     Components should develop and document test-and-compliance plans and
     schedules for each converted or replaced application or system component. It
     also provides a checklist containing items to be included in the Y2K testing-and-
     compliance process that helps determine whether a system is compliant. The
     checklist is an aid for system owners to ensure that their systems are thoroughly
     tested and properly documented before they are considered to be Y2K
     compliant.

     Y2K Compliant Systems. In January 1998, DISA reported that 21 of 98
     mission-critical systems were Y2K compliant, and 49 of 127 non-mission-
     critical systems were Y2K compliant. In our sample, we looked at 13 systems
     that DISA considered Y2K compliant and found 10 systems that had been
     classified as Y2K compliant without being tested, without interface
     identification being made for those systems, and without the compliance
     checklists being completed.

     DISA has developed a Y2K-compliance certification plan that provides
     instructions for determining the compliance of information technology,
     software, and systems that face a Y2K problem. The compliance certification
     plan also provides the steps necessary to determine whether modified
     information technology systems can ensure a smooth transition from the 20th
     century to the 21st century. Systems that are deemed properly modified will be
     certified as Y2K compliant. In addition, the compliance certification plan
     requires certifications from the test manager, system manager, and system
     customer for each compliance checklist. The DISA is also developing an
     applications Y2K test bed to provide testing for in-house-generated database
     applications.


Continuing DISA Actions

     DISA is resolving several of the issues addressed in this report. The DISA Y2K
     program manager is revising the DISA Y2K Management Plan, which will be
     available for coordination within the DISA Directorates by June 30, 1998.
     DISA is also writing separate instructions for DISA Year 2000 Certification and
     Validation Guidance, which incorporates the DOD checklist on compliance and
     validation and a directive addressing risk management and contingency
     planning.



Other Matters of Interest

     In a separate review, the Inspector General, DOD, is also examining the Y2K
     posture of the Defense Megacenters that DISA owns and operates. These
     organizations provide mainframe data processing services to functional users in


                                        11
Status of the Defense Information Systems Agency Year 2000 Program


      the Services and the Defense Agencies. Defense Megacenter Y2K concerns
      have been tentatively identified in the areas of reporting, testing, and
      contingency planning.


Conclusion

      Although DISA has recognized the importance of solving Y2K problems in its
      systems, it has not emphasized the planning and precautionary strategies that are
      outlined in the DOD Management Plan to ensure that DISA will be well-
      positioned to deal with unexpected problems and delays. Unless DISA takes
      additional measures, it faces a high risk that its mission capabilities and those of
      supporting DOD Components will be impaired because of Y2K-related
      disruptions.          -



Recqmmendations,           Management          Comments,         and
Au&t Response                     .


      We recommend that the Director, Defense Information Systems Agency:

             1. Review changes to the DOD Year 2000 Management Plan, and
      update the Defense Information Systems Agency Year 2000 Management
      Plan according to those changes.

              2. Disseminate the regulations, procedures and strategies governing
      the DOD Year 2000 Management Plan and the Defense Information Systems
      Agency Year 2000 Management Plan and other guidance to the operating
      levels.

             3. Require system managers to accurately document the system
     status in accordance with the exit criteria prescribed in the DOD Year 2000
     Management Plan.

             4. Complete the identification of all interfaces and communicate the
     resolutions of the potential year 2000 interface problems to the interface
     partners.

            5. Refine cost estimates for each system to determine the funding
     needed.

            6. Develop contingency plans for mission-critical systems that will
     not complete the %nplementation” phase by December 199%

           7. Determine systems as year-2000 compliant only after testing and
     completing the compliance checklists.



                                          12
      Status of the Defense Information Systems Agency Year 2000 Program


Management Comments. The Inspector General, Defense Information
Systems Agency, generally concurred with the recommendations and described
ongoing actions to implement them. Management will update the DISA Y2K
Management Plan to reflect DOD guidance and requirements. Interfaces with
both internal and external systems will be identified, and interface agreements
will be documented through memorandums of agreement or interface control
documents. Management stated that DOD agreed to exempt communications
transport systems from developing formal interface agreements because
adherence to applicable international and national standards accomplishes the
same results. Using the revised guidance in the draft DOD Y2K Management
Plan, DISA is revalidating Y2K cost estimates but does not anticipate needing
any additional funding. Contingency plans will be developed for
mission-critical systems that will not be fully Y2K compliant by September 30,
1998, or that will not be fully implemented by December 1998. Management
also stated that Version 2.0 of the DISA Y2K Management Plan specifically
requires that DISA complete a Y2K Compliance Checklist for all systems
during the testing phase.

DISA management partially concurred with our recommendations related to
dissemination of Y2K guidance and requirements and to documenting system
status as prescribed in the DOD Y2K guidance. Management stated that DISA
has used and continues to use every means possible to disseminate Y2K
guidance. In November 1996, the draft DISA Y2K Management Plan, specific
guidance from DOD and DISA management, and other important Y2K
information was distributed via electronic mail to about 50 managers and Y2K
points of contact. Additionally, information on Y2K web sites, and commercial
and government software and hardware, are sent to Y2K points of contact and
operating level personnel on an almost daily basis. Further, Y2K-related
information is distributed during frequent Y2K status and progress reviews.
Management stated that the system-status and milestone-events information in
Appendix B of this report is so outdated that the current Y2K status of DISA is
inaccurate. Currently, exit criteria for the renovation phase are nearly
completed, and test schedules and validation plans for DISA mission-critical
systems are being finalized. The status of DISA systems was intensely reviewed
in April 1998 and is updated monthly. The complete text of management
comments is in Part III of this report.

Audit Response. We consider management comments to be generally
responsive to all recommendations. We also recognize that DISA has
significantly improved its Y2K program and has made progress in remedying its
Y2K problems since the audit. However, we could not verify DISA comments
that DOD officials had agreed to exempt telecommunications transport systems
from developing specific Y2K interface agreements. The present draft Version
2.0 of the DOD Management Plan does not provide such an exemption, and the
staff in the Office of Year 2000 Oversight and Contingency Planning was not
aware of any plans to include such a provision. We request that DISA clarify
requirements for establishing interface agreements for telecommunications
transport systems with DOD Y2K officials and provide comments on this aspect
of the final report, including estimated completion dates for any planned
actions, by September 4, 1998.

                                   13
Part II - Additional Information
Appendix A. Audit Process
       This is one of a series of reports being issued by the Inspector General, DOD, in
       accordance with an informal partnership with the Chief Information Officer,
       DOD, to monitor DOD efforts to address the Y2K computing challenge. For a
       listing of audit projects addressing this issue, see the Y2K webpage on IGNET
       at (http:Ilwww.ignet.gov/).


Scope
       We reviewed the progress that DISA has made in resolving the Y2K computing
       issue. The review included interviews conducted with 24 management
       representatives who are responsible for making 35 DISA systems Y2K
       compliant. Also, we evaluated documentation supporting actions taken to
       resolve Y2K deficiencies within specific DISA systems. We compared the
       DISA Y2K efforts with those described in the DOD Management Plan issued by
       the Assistant Secretary of Defense (Command, Control, Communications, and
       Intelligence) in April 1997. We assessed the efforts related to the progression
       of the 35 DISA systems reported in detail in Part I through the five-phase
       management process, using documents that included Office of Management and
       Budget guidance, the DOD Management Plan, the DISA Y2K Management
       Plan, DISA Y2K Test and Validation Guidelines, and systems inventory
       database information.

DOD-Wide Corporate Level Government Performance and Results Act (GPRA)
Goals. In response to the GPRq the Department of Defense has established 6 DOD-wide
corporate-level performance objectives and 14 goals for meeting the objectives. This
report pertains to achievement of the following objectives and goals.

       l   Objective:   Prepare now for an uncertain future. Goal: Pursue a focused
           modernization effort that maintains U.S. qualitative superiority in key war
           fighting capabilities. (DoD-3)

DOD Functional Area Reform Goals.       Most major DOD functional areas have also
established performance improvement reform objectives and goals. This report pertains
to achievement of the following functional area objectives and goals.

       l   Information   Technology Management      Functional Area.    Objective:
           Become a mission partner. Goal: Serve mission information users as
           customers. (ITM-1.2)

       l   Information   Technology Management      Functional Area.    Objective:
           Provide services that satisfy customer information needs. Goal: Modernize
           and integrate Defense information infrastructure. (ITM-2.2)



                                           16
                                    Appendix A. Audit Process and Prior Coverage


       l   Information Technology Management Functional Area. Objective:
           Provide services that satisfy customer information needs. Goal: Upgrade
           technology base. (ITM-2.3)

General Accounting Office High-Risk Area. The General Accounting Office (GAO)
has identified several high-risk areas in the DOD. This report provides coverage of the
Information Management and Technology high-risk area.


Methodology

       Audit Type, Dates, and Standards. We performed this economy and
       efficiency audit from October 1997 through March 1998 in accordance with
       auditing standards issued by the Comptroller General of the United States, as
       implemented by the Inspector General, DOD. We did not use computer-
       processed data or statistical sampling procedures for this audit.

       Contacts During the Audit. We visited or contacted individuals and
       organizations within DOD. Further details are available upon request.

       Management Control Program. We did not review the management control
       program related to the overall audit objective because DOD recognizes the Y2K
       issue as a material management control weakness area in the FY 1997 Annual
       Statement of Assurance.


Prior Coverage

       The General Accounting Office and the Inspector General, DOD, have
       conducted multiple reviews related to Y2K issues. General Accounting Office
       reports can be accessed over the Internet at http://www.gao.gov. Inspector
       General, DOD, reports can be accessed over the Internet at
       http://www.dodig.osd.mil.




                                          17
Appendix B. Summary of Defense Information
Systems Agency Systems Reviewed




                     18
                                              Knowledge of            Documented                  Completed                 Completed                 cost                                          Certified as
                                               Management                  Y2K                     Interface                 Interface             Estimates             Documented                      Y2K
               System
    ................     Name                      Plan
                 ..............................................................................  Identification            Agreements’
                                                                                                                                ............
                                                                        Stratedes........................................................          RePorted
                                                                                                                                          ...............            contingency
                                                                                                                                                       .............................  Plans         ComPliants
                                                                                                                                                                                                     ......................
                                                                                                                                                                               ..... ....................
      Advanced Deft     Red                         No                     No                         Yes                       No                    No                       No                        Yes
      Switch Network Integrated
      Management Support
      System ’

      Anti-Drug Network’                            No                     No                         YeS                       No                    No                       No                       N/A

      Airtields Database’                           No                     No                         YeS                       No                    No                       No                        Yes

      Automated Resources                          YeS                     No                         YCS                       No                    Yes                      No                        Yes
      Management System”’

      Communications                               Yes                     YeS                        Yes                       No                    No                      No                         Yes
      Management and Control
      Activity Automated
      Billing System

      Corporate Database for                       Y*l                     No                        N/A                        N/A                   No                       No                        Yes
      Windows’

      Counter Drug Intelligence                     No                     YeS                        Yes                       No                    No                      Yes                       N/A
      system’
z
      Defense Information                          YeS                     No                        N/A                        N/A                  Yes                      No                         No
      Systems Agency
      Acquisition Bulletin Board
      System5

      Database Commitment                                                  No                         YeS                       N/A                   No                      No                         Yes
      Accounting System for
      Windows5

      Defense Information                          YeS                     YtS                        No                        No                    No                      No                         No
      Infrastructure-Common
      Operating Environment

      Defen.95 Information                          No                     No                         YE'                       No                   Yes                      No                         No
      System Network’

      Defense Information                          No                      No                         YeS                       No                   YeS                      No                         YeS
      System Network-
      Asynchronous Transfer
      Mode’

      Defense Information                          No                      No                        Yes                        No                   Ye.5                     No                         YeS
      System Network Channel
      Service Unit and Data
      Service Unit’
     ............................................................................................................................................................................................................................................................................




                                                                                                                                                                                                                          Knowledge of                                              Documented   Completed                  Completed               cost                                           certified as
                                                                                                                                                                                                                          Management                                                    Y2K       Interface                  b&face              Estiites               Documented                     Y2K
     ..............
                Srn.~??!!?~......................
                                             ..?.!
                                                t!!!.................
                                                                  .SE??!~ti~.?.
                                                                          ...........
                                                                                   .._e!!!G?!!?!                                                                                                                                                                                                              ...........   -me’    .            Reported
                                                                                                                                                                                                                                                                                                                                        ...............             Contingency
                                                                                                                                                                                                                                                                                                                                                      .............................  Plans
                                                                                                                                                                                                                                                                                                                                                                              ..........................
                                                                                                                                                                                                                                                                                                                                                                                                   G?.?!R!k!!:. ....
                Global Omunand and                                                                                                                                                                                                                   YeS                               No           No                         No                   No                      No                        No
                Control System


                Global Combat Support                                                                                                                                                                                                                YeS                               Yes          No                         No                   No                      No                        No
                 System

                Global On-line Marine                                                                                                                                                                                                                  No                              No           Yes                        No                  YeS                      No                        No
                Edit and Report System


                Integrated Resource                                                                                                                                                                                                                    No                              YeS          Yes                        No                   No                      No                       YeS
                Management system


                 Mission Requirements                                                                                                                                                                                                              N/A                                 N/A          N/A                       N/A                  N/A                     N/A                       N/A
                 ROpII?



                Nuclear Planning and                                                                                                                                                                                                               NIA                                 N/A          N/A                       N/A                  N/A                     N/A                       N/A
                Execution Syste.m9
!3
                 Pass Ultra Programmable ’                                                                                                                                                                                                          Yes                                No           No                         No                   No                      No                        No

                Telecommunication                                                                                                                                                                                                                      No                              No           N/A                       N/A                   No                     Yes                       YeS
                Service Priority’ ’ 5


                White House                                                                                                                                                                                                                         Yes                                Yes          No                         No                   No                      No                        No
                Communications Agency
                Pqcrty Book System

                 WarehouseInventor
                                                                                                                                                                                                                                                   N/A                                 NIA          N/A                       N/A                  N/A                     N/A                       NIA
                Systrm’




                      ’ Not applicable responses refer to those systems that do not have any external interfaces or internal interfaces.
                      * Responses of not applicable refer to those systems that are not beyond the renovation phase.
                      3 Telecommunications transport system requiring waiver/exemption.
                      4 Replacement system or system scheduled to be replaced.
                      ’ Stand alone systems.
                      6 System owned by the National Security Agency.
                      ’ Initially identified as being in the renovation phase but the system was retired in July 1997.
                      ’ Retired.
                      9 System transferred to the Air Force and Air Force expects the system to be implemented by January 1999.
Appendix C. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Year 2000 Oversight and Contingency Planning Office
Assistant Secretary of Defense (Health Affairs)
Assistant Secretary of Defense (Public Affairs)

Joint Staff
Director, Joint Staff

Department        of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Chief Information Officer, Army

Department        of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Chief Information Officer, Navy

Department        of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Air Force




                                         21
Appendix C. Report Distribution




Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligency Agency
Director, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency
   Chief Information Officer, Defense Information Systems Agency


Non-Defense Federal Organizations                 and Individuals
Office of Management and Budget
   Office of Information and Regulatory AfTairs
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office
Director, Defense Information and Financial Management Systems, Accounting and
   Information Management Division, General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

   Special Committee on the Year 2000 Technology Problem
   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Governmental Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
      Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                          22
Part III - Management Comments
Defense Information Systems Agency Comments


                        DEFENSE INFOfWATlON SYSTEMS AGENCY
                                     lol~amlnaBRw
                                  --a2wam


        Inspector    General                                 26 June 1998
   z%

        MEMORANDUM
                FOR INSPECTORGENERAL,DEPARTMENT OF DEFENSE
                   ATTN: Director, Acquisition Management

        SUBJECT
              :             Comments to DODIGDraft Audit Report on
                            DISA’s Year 2000 Program

        Reference:          DQDIGDraft Report, Audit on Management of
                            the Defense Information Systems Agency Year
                            2000 Program (Project No. 8AS-OOOS), 27 May
                            1998


        1. The Year 2000 Problem has been and continues to be the
        Director’s   Number 1 priority,  especially for the mission
        critical   systems.  It has received increased top management
        visibility   weekly since October 1997, when the Vice
        Director started chairing the DISA Y2K Weekly Updates.
        Prior to that date, the Director held several in-process
        reviews and the Chief Information Officer held monthly
        reviews.

        2. While DISA concurs with the recommendations of the
        referenced report, we note that DISA has made tremendous
        progress since the audit observations were made and most of
        the recommended actions are well underway.

        3. The point of contact for this action is Mr. Thomas J.
        Nicholas, Special Assistant to the IG for Y2K. He can be
        called   at (703) 6074315    or by email at nichoiat@ncr.disamil.

        FOR THE DIRECTOR:




        1 Enclosure   a/s
                                          Inspector   General




                                             24
                         Defense Information Systems Agency Comments




     MMAGMWP~STQTOIGDRAFTJUJDITRBORTON
    -0FTEEDEoglpsE           IlmxwATIrn SYsTmS AGmm
          YEAR 2000 PRaRN4 (Pxojact Ho. SJLS-0005)


The DODIG recommends that the Director,   Defense Information
Systems Agency:

1. Review changes to the DODYear 2000 Management Plan,
and update the Defense Information Systems Agency Year 2000
Management Plan according to those changes.

DISA Response: Concur. As noted in the draft report we
will issue Version 2.0 DISA Year 2000 Problem Management
Plan by 30 June 1998 at the end of our Renovation Phase. It
is based on the latest draft of the DoD Year 2000
Management Plan, which is expected to be final before 30
June 1998.

2. Disseminate the regulations,  procedures and strategies
governing the DODYear 2000 Management Plan and the Defense
Information Systems Agency Year 2000 Management Plan and
other guidance to the operating levels.

DISA Response: Partially    concur. Downwardcommunication is
a vital part of any effort.     However, DISA has used and
continues to use every means possible to disseminate Y2K
guidance to Program Managers and others.     Drafts of the
DISA Y2K Problem Management Plan, specific    guidance from
DODand management, and other important documents were
distributed  to about 50 managers and Y2K Points of Contact
via email in November 1996. The first DODY2K Management
Plan was distributed  in April 1997.

References to Y2K web sites,   information on commercial and
government off-the-shelf    (COTS/COTS)software and hardware,
test results,   and the latest guidance on Y2K have been
disseminated to the Y2K points of contact and operating
level personnel via email on a daily basis.     Moreover, both
weekly and monthly meetings have served to keep DlSA staff
and operating managers apprised of the problems and the
progress of our Y2K challenge.     Weekly Y2K updates have
been held with the Vice Director, Chief of Staff, and
senior managers since October 1997. These frequent       Y2K
progress review meetings of the key management officials
and Y2K Coordinators also serve as a forum to distribute
the latest and most relevant reports, schedules, and Y2K
Defense Information Systems Agency Comments




          guidance documents.      Subsequently, this data along with
          certification    and testing guidance is formally placed on
          the DISA/DoD/JITC and other relevant web pages.      The draft
          DoD and draft DISA Year 2000 Management Plans were
          distributed   via electronic   mail in March 1998 to all
          Program Hanagers, Y2K Points of Contact, and other DISA
          system representatives.      The final versions will be
          disseminated in a similar fashion and copies will be placed
          on the DoD and/or DISA web pages.

          3. Require system managers to accurately document the
          system status in accordance with the exit criteria
          prescribed in the DODYear 2000 Management Plan.

          DISA Response: Partially    concur.  However, the data in
          Appendix B to this report is now so outdated that it gives
          an inaccurate picture of the DISA’s true Y2K status at the
          end of June 1998. Continuous monitoring of systems
          progress through the phases has been occurring and reported
          as a standard feature of the Y2K weekly management
          briefing  to the Vice Director and Chief of Staff. In
          addition,   an accurate track record is kept of the progress
          of each system from one phase to the next.     At this time,
          exit criteria   for the Renovation Phase are nearly completed
          for almost all systems.     Test schedules and validation
          plans are being finalized    for DISA’s mission critical
          systems.    In addition,  new DODand DISA reporting
          requirements call for step by step updates on the status of
          Y2K by phase.    The status of DISA mission critical     and
          support systems was scrubbed in April 1998 and is being
          updated monthly.

          4. Complete the identification    of all interfaces   and
          communicate the resolutions   of the potential,   Year 2000
          interface problems to the interface partners.

          DISA Response: Concur. Complete identification       and
          documentation of interfaces    and interface agreements has
          been underway since our initial     inventory in 1996. DISA has
          identified  internal system interfaces     during the assessment
          phase; however, identification    of external interfaces    has
          taken longer.    Nevertheless,  this is an ongoing effort as
          our systems and networks are dynamic and the number of
          interfaces  change frequently.    Documentation of the Y2K
          compliance of the interfaces    may take the form of
          applicable  international   and national standards, interface
          control documents, or memoranda of agreement (MOA),




                                             26
                           Defense Information System Agency Comments




depending on the nature of the interface.    In the case of
the Global Commandand Control System [GCCS) we have
identified 20 external interfaces   that have potential Y2K
impacts and we are preparing MOAsfor each one. We expect
to complete our documentation efforts by 30 June 1998, the
current DODmilestone.    DISA obtains recurring   reports on
the status of interfaces  from system managers and presents
progress reports to the Vice Director at the weekly Y2K
management meeting.

To assist DISA in the interface identification     effort,  the
DODIGis requested to follow up on its concurrence that
“formal interface   agreements for telecosnnunications systems
may not be appropriate”   (page 9, Par 1).   WD has ag:eed to
include guidance in their next Year 2000 Management Plan
making an exception for systems such as telecommunications
transport systems where interface agreements are not
appropriate because national and international     standards
appropriately  define the interface.

5. Refine cost estimates    for each system to determine the
funding needed.

DISA Response: Concu:.   However, no additional   funding is
anticipated  or needed.  Recovery of the cost of Year 2000
efforts already undertaken, in order to then carry our the
original planned enhancements to our systems, would be
extremely beneficial.   We are presently revalidating   the
cost estimates for remediation of our Mission Critical
systems using the revised guidance in the draft DODY2K
Management Plan. All of the Y2K Points of Contact have
been tasked to document their Y2K cost estimates.     We will
have a better total cost estimate by 1 July 1998.

6.  Develop contingency plans for mission-critical systems
that will not complete the “implementation” phase by
December 1998.

DISA Response: Concur. All mission critical systems that
will not complete full Y2K compliance by September 30,
1998, or full implementation by December 1998, will have a
system contingency plan developed by December 1999.

7. Determine systems as year 2000 compliant only after
testing and completing the compliance checklists.




                                  27
Defense Information Systems Agency Comments




          DISA Response: Concur. Version 2.0 of the DISA Year 2000
          Problem Management Plan requires that a DISA Y2k Compliance
          Checklist be completed for all DISA systems that uere
          renovated, or that replace prior systems, during the
          Validation   Phase. Our concentration has been on fixing Y2R
          problems in computation or interchange in our mission
          critical   systems, as quickly as possible,   so that our
          customers can build on our solutions,    while continuing to
          meet the warfighter’s   needs.   The paperwork was left to the
          Validation   Phase when a more complete set of Year 2000
          compliance criteria   were available and the documentation
          requirements were more firmly set.
Audit Team Members

This report was prepared by the Acquisition Management Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

Thomas F. Gimble
Patricia A. Brannin
Mary Lu Ugone
James W. Hutchinson
JoAnn Henderson
Hugh G. Cherry
Kathleen Fitzpatrick
Jennifer L. Zucal
Labib A. Baltagi
Sonya M. Mercurius
Wendy Stevenson
Krista S . Gordon
